Criminal
I nvestigative
Policy &
Oversight
                          Evaluation of
          Deputation of DoD Uniformed Law Enforcement
            Personnel by State and Local Governments

Report Number CIPO2001S005                    June 12, 2001




                Office of the Inspector General
                    Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, visit the Inspector General,
  DoD, home page at http://www.dodig.osd.mil/dcis/cipo/evals.htm, or contact Dr.
  Charles McDowell, Program Director, at (703) 604-8769 (DSN 664-8769) or Mr.
  John Perryman, Project Manager, at (703) 604-8765 (DSN 664-8765).

  Suggestions for Future Evaluations

  To suggest ideas for or to request future evaluations, contact the Audit Followup
  and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms

DCIO                  Defense Criminal Investigative Organization
DoD                   Department of Defense
DoDD                  Department of Defense Directive
DoDI                  Department of Defense Instruction
IG, DoD               Inspector General, Department of Defense
USD(P&R)              Under Secretary of Defense (Personnel and Readiness)
                        Office of the Inspector General, DoD
Report No. CIPO2001S005                                                      June 12, 2001
  (Project No. 9850023M)

     EVALUATION OFDEPUTATION OFDOD UNIFORMEDLAW
 ENFORCEMENTPERSONNELBYSTATEAND LOCALGOVERNMENTS

                             Executive Summary

Introduction. We announced this evaluation on June 15, 1999, and conducted our
fieldwork from June 1999 through February 2000.

Objectives. Our primary objective was to determine whether DoD should issue policy
governing the deputation of DoD law enforcement personnel by State and local
governments. Our evaluation focused on the following sub-objectives:

   • to determine the propriety of using deputized authority in view of statutory and
regulatory constraints, if any;

   • to determine whether the ability of DoD law enforcement organizations to perform
essential law enforcement functions within their Federal jurisdiction is significantly
hampered by a lack of authority to enforce State and local laws;

   • to determine if the DoD law enforcement mission can be met fully and effectively
with DoD assets and the assistance of State and local law enforcement agencies as
necessary;

   • where deputation exists, to determine if internal safeguards and management
controls ensure the proper exercise of the deputized authority; and,

   • to determine if the benefits that flow from DoD law enforcement agencies utilizing
State or local law enforcement authority exceed the liabilities that attach to exercising
such authority.

Results. We determined that neither the Office of the Secretary of Defense nor the
Military Departments have issued policy to govern DoD law enforcement acquisition and
use of State and local deputized police powers while on duty at DoD installations.
Nevertheless, approximately 6.5 percent of military law enforcement organizations use
State or local deputation to enhance their on-duty police powers.

Certain installation police officers have acquired and employed these enhanced powers
without justification or sufficient oversight. Specifically, deputation has been acquired
without any demonstration by the installation that the DoD law enforcement mission
would be hampered without deputation. These installations have not assessed whether
their DoD law enforcement mission can be met fully and effectively by employing the
assistance of available State and local law enforcement resources. Local law
enforcement organizations advised us that they could and would assist the DoD


                                             i
installations if needed. Furthermore, once obtained, many deputized powers are not used.
Those deputized powers that are used are not subjected to command oversight.

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Personnel and Readiness) revise DoD Directive 5525.5, “DoD Cooperation with Civilian
Law Enforcement Officials,” January 15, 1986, to require prior approval by the Service
Secretary for Service law enforcement organizations and by the Under Secretary of
Defense (Personnel and Readiness) for other DoD law enforcement organizations before
a DoD law enforcement organization or person may be deputized and use State or local
law enforcement powers while on-duty at a DoD facility. We also recommend that the
approvals conform to the guidelines set forth in Appendix C of this report. Additionally,
we recommend the Military Departments establish procedures to periodically review the
initial or recurrent training on the authority, scope, and extent of law enforcement
authority at each installation.

Management Comments. The Air Force and Navy concurred with the report. The
Army did not respond to the draft report. USD(P&R) deferred to the Office of the
General Counsel, DoD. The General Counsel’s office concurred with the report,
suggested the additional recommendation concerning the review of recurrent training,
and provided clarifying language.

Evaluation Response. We consider management comments to be fully responsive and
have largely incorporated the changes suggested by the Office of the General Counsel.




                                           ii
   EVALUATION OF DEPUTATION OF DOD UNIFORMED LAW
ENFORCEMENT PERSONNEL BY STATE AND LOCALGOVERNMENTS

                                             TABLE OF CONTENTS

Executive Summary ............................................................................................................. i
Part I - Introduction ............................................................................................................. 1
   Background..................................................................................................................... 1
         Civilian Law Enforcement Deputation: The Concept ............................................ 2
         Civilian Deputation of Military Law Enforcement Officials ................................. 2
         Civilian Deputation in the Military Departments ................................................... 3
   Objectives, Scope and Methodology.............................................................................. 3
Part II- Evaluation Results and Recommendations............................................................. 5
   Introduction .................................................................................................................... 5
   Are There Statutory and Regulatory Constraints? ......................................................... 6
   Is Mission Accomplishment Impaired?.......................................................................... 8
   Is State and Local Assistance Effective?........................................................................ 8
   Are Management Controls Adequate? ........................................................................... 9
   Do Benefits Outweigh Liabilities? ................................................................................. 9
   Conclusion...................................................................................................................... 9
   Recommendations Management Comments and Evaluation Response....................... 10
         Management Comments ....................................................................................... 10
         Evaluation Response ............................................................................................ 10


Appendix A - Survey of Military Service Law Enforcement Organizations to Identify
             Those with Deputized State or Local Police Powers
Appendix B - How Bases Use Deputized Powers
Appendix C - Guidelines for Approving Use of Deputized State or Local Law
             Enforcement Powers by DoD Law Enforcement Personnel While On
             Duty
Appendix D - Report Distribution
Appendix E - Management Comments
       EVALUATION OF DEPUTATION OF DOD UNIFORMED LAW
    ENFORCEMENT PERSONNEL BY STATE AND LOCALGOVERNMENTS

                                           Part I - Introduction

    Background
              In conducting previous evaluations, we learned that some installation-level DoD
              law enforcement personnel advocated enhancing their Federal law enforcement
              authority by seeking additional authority from State or local agencies. The
              personnel believed that by reducing reliance on local civilian law enforcement
              authorities, they could enhance their ability to manage law enforcement
              operations on or adjacent to their installations. They cited concerns about
              enforcing laws involving civilian violators in areas where the Federal Government
              interests are only proprietary,1 or where the Federal Government has legislative
              jurisdiction2 concurrent with that of the State.3 For example, some of their
              concerns were:
                      • without deputized authority to arrest civilians, they were uncertain of
              their authority to detain lawbreakers until local law enforcement officials could
              respond;
                      • without deputized authority to arrest civilians, they were uncertain
              about the force they could use to detain lawbreakers until local law enforcement
              officials arrived;
                      • without deputized authority to arrest civilians, they were uncertain
              about the extent of their personal liability exposure if they forcibly detained
              civilians until local law enforcement officials arrived;


1
    Proprietary interest is often referred to as proprietary jurisdiction. For purposes of this evaluation, we use this term to
    refer to a DoD location where the Federal Government has acquired some right or title to an area in a State, but has not
    obtained any measure of the state’s authority (sovereignty) over the area. Under those circumstances, unless the State
    or local jurisdiction has deputized the Federal law enforcement officials, the Federal law enforcement officials may
    enforce Federal rules, regulations, and laws on the property, but not State or local laws and ordinances.
2
    Article I, Section 8, Clause 17, Constitution of the United States, gives States exclusive legislative jurisdiction unless a
    State cedes jurisdiction to the United States and the United States accepts the jurisdiction. Under the Constitution of
    the United States, the Congress may “… exercise exclusive Legislation in all Cases whatsoever, over such District (not
    exceeding ten Miles square) as may … become the Seat of the Government of the United States, and to exercise like
    authority over all Places purchased by the Consent of the Legislature of the State in which the Same shall be for the
    Erection of Forts, Magazines, Arsenals, dock-yards and other needful buildings.” In some instances, in ceding
    jurisdiction to the United States, a State reserved to itself the right to exercise the same powers and authorities, thereby
    sharing or having concurrent jurisdiction with the Federal Government.
3
    Some installation-level DoD law enforcement personnel expressed concern about their ability to enforce federal laws
    involving civilian violators in areas where there was concurrent jurisdiction. Their concern is the result of a
    misunderstanding of the law rather than a lack of actual authority, because the ability of the law enforcement official to
    deal with civilian violators in a concurrent jurisdiction is exactly the same as in an exclusive Federal jurisdiction.

                                                                 1
                     • without deputized authority to arrest civilians, they were uncertain
             how they should respond to citizen requests for immediate police assistance while
             transiting through civilian communities between military facilities; and,
                     • they did not like the inconvenience of having to wait for a local
             civilian police officer to respond and take custody of a civilian offender.

             The Military Departments should be able to easily address each of these concerns
             through recurrent training that emphasizes the authority, scope, and extent of
             existing installation law enforcement authority.


             Civilian Law Enforcement Deputation: The Concept
              State and local jurisdictions use a variety of names to identify the process for
              conferring law enforcement deputation. In the Commonwealth of Virginia, for
              example, the circuit court of any county or city may appoint “Special
              Conservators of the Peace” who are empowered to enforce Commonwealth laws
              and local ordinances. 4 In California, a Federal employee who is deputized as a
              “Peace Officer” may enforce state laws and ordinances.5 Although different
              names are used, this process conveys state police powers upon individuals who
              are not otherwise members of a State or local law enforcement agency.


             Civilian Deputation of Military Law Enforcement Officials
             Section 1385 of Title 18, Unites States Code, (also known as the Posse Comitatus
             Act), prohibits the use of military personnel to enforce civilian laws, unless
             expressly authorized by the Constitution or an Act of Congress. The Act
             specifically provides that:
                           “[w]hoever, except in cases and under circumstances expressly
                           authorized by the Constitution or Act of Congress, willfully uses any
                           part of the Army or the Air Force as a posse comitatus or otherwise to
                           execute the laws shall be fined not more than $10,000, imprisoned not
                                                          6
                           more than two years, or both.”

             The postulated rationale behind installation-level law enforcement personnel
             obtaining State or local law enforcement authority to enforce State or local laws is
             that doing so enables personnel to deal more promptly with the civilian offenders
             they encounter on the installation. The authority would also allow them to
             provide law enforcement services in areas apart from the main installation,

4
    Section 19.2-13, Code of Virginia
5
    Section 830.8, California Penal Code
6
    The Act’s proscriptions are made applicable to the Navy and Marine Corps by Secretary of the Navy
    Instruction 5820.7B, “Cooperation with Civilian Law Enforcement Officials,” paragraph 9.a.(1), March 28, 1988; and
    DoD Directive 5525.5, “DoD Cooperation with Civilian Law Enforcement Officials,” Enclosure 4, Paragraph E4.3,
    January 15, 1986.

                                                            2
             including military housing that is off of the military reservation. The authority
             would also enable them to provide the services without having to rely on local
             police departments that may not be adequately staffed or deployed to deal with
             law enforcement issues on or adjacent to the installation. A drawback, however,
             is that by using State or local authority to conduct law enforcement operations,
             any violations of State or local law would have to be filed in local courts.
             Additionally, law enforcement actions would have to conform to State
             requirements, which may conflict with DoD policy.


             Civilian Deputation in the Military Departments
             We sought to identify the extent of installation-level civilian deputation within the
             DoD law enforcement community. Using a written survey, we contacted
             92 military installations, all of which were located within the continental United
             States (see Appendix A). Although the responses indicated that deputation was
             not widely used, six Navy installations responded that they employed law
             enforcement personnel who had and used deputized powers in performing their
             Federal duties.


    Objectives, Scope, and Methodology
             Our primary objective was to determine whether DoD should issue policy
             governing the deputation of DoD law enforcement personnel by State and local
             governments. Our evaluation focused on the following sub-objectives:7
                     • to determine the propriety of using deputized authority in view of
             statutory and regulatory constraints, if any;
                     • to determine whether the ability of DoD law enforcement
             organizations to perform essential law enforcement functions within their Federal
             jurisdiction is significantly impaired by a lack of authority to enforce State and
             local laws;
                     • to determine if the DoD law enforcement mission can be met fully and
             effectively with the assistance of State and local law enforcement agencies as
             needed;8
                   • where deputation exists, to determine if internal safeguards and
             management controls ensure the proper exercise of the deputized authority; and,



7
    Objectives were derived from U.S. Attorney General Memorandum, “Guidelines for Legislation Involving Federal
    Criminal Law Enforcement Authority,” June 29, 1984. At the time of this evaluation, we validated that the guidelines
    were current and that changes were not anticipated.
8
    More specifically, we wanted to know whether there is an adverse impact on DoD law enforcement officers’ mission if
    they must continue to rely on State and local law enforcement organizations to address non-Federal crimes that
    civilians commit on or near military installations.

                                                             3
        • to determine if the benefits that flow from DoD law enforcement
agencies using State or local law enforcement authority exceed the liabilities that
attach to exercising such authority.

We visited the locations identified through our survey as having deputized law
enforcement personnel. We also visited comparable military installations in the
same states that did not use deputized powers, although they would face similar
law enforcement challenges. At both types of locations, we interviewed Service
legal representatives; law enforcement policy proponents; field law enforcement
supervisory and operations personnel (both military and civil service); and local
civilian law enforcement and legal representatives, including those responsible for
granting deputation. We also coordinated certain legal aspects of this evaluation
with the Office of General Counsel, DoD, and the Criminal and Civil Divisions,
Department of Justice.

The scope of our evaluation did not include examining the use of deputized
powers by off-duty DoD military or civilian law enforcement personnel for
non-Federal purposes, or the use of deputized authority by part-time DoD
employees or volunteers. Further, our evaluation focused on installation police
department type organizations. However, our findings would apply to other DoD
police organizations, including those employed at the Pentagon and Defense
agencies.

We performed our fieldwork between June 1999 and February 2000.




                                     4
        EVALUATION OF DEPUTATION OF DOD UNIFORMED LAW
     ENFORCEMENT PERSONNEL BY STATE AND LOCALGOVERNMENTS

          Part II- Evaluation Results and Recommendations

                        Need For DoD Policy and Process

              The DoD law enforcement community does not have a process for determining
              the appropriateness of using deputized law enforcement powers. The condition
              exists because DoD does not have specific policy that addresses the issue. As a
              result, law enforcement decisions regarding deputation are being made at the
              installation level, and a clear risk exists that military law enforcement
              organizations may extend their enforcement powers beyond legal authority with
              neither a demonstrated need nor effective oversight.


     Introduction
              We visited the bases that told us they had police officers who used deputized
              powers while on duty. We wanted to know whether those police officers, when
              performing DoD functions, relied on deputized powers to carry firearms; execute
              search or arrest warrants; make warrantless arrests; and serve legal processes,
              administer oaths or affirmations; or use covert investigative techniques.9 For
              comparison purposes, we also visited military installations that told us they did
              not use deputized powers. Details of our findings at some of the installations are
              set forth in Appendix B.

              Overall, we visited 6 military installations that either used or intended to use
              deputation, and 11 that did not. Supervisors at one base that reported using
              deputation briefed us on their deputized powers. We ultimately learned, however,
              that the base did not have officers who actually were deputized.10 At another
              base, which we visited for comparison purposes, we learned that the law
              enforcement personnel had been deputized by one local jurisdiction and were
              pursuing deputation from other jurisdictions.11




9
     We characterized covert investigative techniques as those generally recognized and utilized for covert operations,
     including electronic surveillance, undercover operations, and paid informants.
10
     This misinformation demonstrated the lack of an effective oversight process for deputation that had led managers and
     officers to assume they had powers they did not have.
11
     Police officers at this base had not begun using their deputized powers, but intended to do so.

                                                              5
Are There Statutory and Regulatory Constraints?
    To determine the propriety of using deputized authority in view of statutory and
    regulatory constraints, we initially researched the legal authority for deputation.
    We found that no law or regulation expressly authorizes or prohibits deputation;
    the legal authority for deputation lies in the inherent authority of commanders to
    provide for the safety and security of their installations. That legal authority
    places significant constraints on the functions of authorizing and exercising
    deputation.

    Constraints on Authorizing Deputation. The decision to obtain deputation
    authority from State or local civilian authorities must be made by the installation
    commander. The commander’s decision must be based on the commander’s
    determination that obtaining deputation authority is necessary to ensure the safety
    and security of the installation or to accomplish some other military purpose
    inherent in the commander’s mission. The determination must be based upon a
    comprehensive review of the particular facts at that installation, including factors
    addressed in the following four sections of this report and must be a reasonable
    and rational exercise of the commander’s discretion.

    Constraints on Executing Deputation Authority. Installation law enforcement
    personnel receive deputation authority solely to accomplish the law enforcement
    function for that installation as defined by the installation commander. They may,
    therefore, use the deputation authority only in furtherance of the defined law
    enforcement function. The constraint should be a significant issue when
    discussing acquisition of deputation authority with State and local authorities.
    State and local authorities must understand the limits that the installation
    commander places on exercising the deputation authority. They must also accept
    that, if any conflict between a State or local requirement exists for exercising
    deputation and the installation commander’s law enforcement requirements,
    installation law enforcement personnel must always comply with their
    commander’s requirements. Any exercise of deputation authority beyond the
    limit set by the installation commander may subject installation law enforcement
    personnel to personal liability and may violate the Posse Comitatus Act (see
    below for additional information regarding this Act).

    We were unable to identify the DoD policy that specifically addresses the issue of
    local law enforcement deputation for DoD personnel to assist in performing their
    DoD mission. In addition, the Services do not have written guidance on using
    deputized powers, either at the Service headquarters or installation level.

    Only DoD Directive 5525.5, “DoD Cooperation with Civilian Law Enforcement
    Officials,” January 15, 1986, provides peripherally relevant guidance. The
    directive establishes DoD policy on cooperating with civilian law enforcement
    and provides:



                                          6
                             “It is DoD policy to cooperate with civilian law enforcement officials
                             to the extent practical. The implementation of this policy shall be
                             consistent with the needs of national security and military
                             preparedness, the historic tradition of limiting direct military
                             involvement in civilian law enforcement activities, and the
                             requirements of applicable law, as developed in enclosures E2. through
                             E7.”

              Enclosure E4. of the Directive, “Restrictions on Participation of DoD Personnel in
              Civilian Law Enforcement Activities,” permits certain specified direct assistance
              to civilian law enforcement, including:
                             “E4.1.2.1. Actions that are taken for the primary purpose of furthering
                             a military or foreign affairs function of the United States, regardless of
                             incidental benefits to civilian authorities.”

              One type of direct assistance permissible under this provision, depending on the
              nature of the DoD interest and the authority governing the specific action, is:
                             “E4.1.2.1.3. Investigations and other actions related to the
                             commander’s inherent authority to maintain law and order on a military
                             installation or facility.”

              The policy, however, specifically cautions against “… actions taken for the
              primary purpose of aiding civilian law enforcement officials or otherwise serving
              as a subterfuge to avoid the restrictions of [the Posse Comitatus Act].”12 The
              caution would not appear to be relevant to the Federal uses of State and local
              deputation under review in this evaluation. The Act (18 U.S.C. §1385) generally
              prohibits the use of the military to enforce civilian laws, but a recognized
              exception to the general rule, memorialized in DoD regulations, is the inherent
              authority of a military commander to maintain law and order on the military
              installation or at a military facility. The uses of deputized power we examined
              were presumably sought and used for the purpose of enhancing the installation
              commander’s ability to safeguard the military community and its personnel. 13

              In summary, 18 U.S.C. §1385 generally prohibits the use of the military to
              enforce civilian laws, but a recognized exception to the general rule,
              memorialized in DoD regulations, is the inherent authority of a military
              commander to maintain law and order on a military installation or at a military
              facility




12
     Paragraph E4.1.2.1., DoD Directive 5525.5, “DoD Cooperation with Civilian Law Enforcement Officials,” January 15,
     1986.
13
     This is not to say, however, that the use of those powers could not potentially result in a violation of the Act if, for
     example, the powers are exercised beyond the needs of the military installation. We note also that even if the military
     installation law enforcement officers involved are civilian employees, they are not exempted by DoD Directive 5525.5
     from the provision of the Posse Comitatus Act when under the command and control of a military officer such as an
     installation commander.

                                                                7
Is Mission Accomplishment Impaired?
     None of the installations we visited needed deputized powers to authorize
     personnel to carry firearms, serve legal process, administer oaths or affirmations,
     or use covert investigative techniques while performing their official police
     duties. The officers either already possessed sufficient authority for those
     purposes, or the nature of their duties did not require additional authority.

     We then sought to determine whether the officers needed deputized powers to
     execute arrest and search warrants or to make warrantless arrests, and whether
     their mission accomplishment would be significantly diminished without those
     deputized powers. Overall, we found that installations with officers possessing
     those deputized powers did not need the additional powers to meet their law
     enforcement responsibilities. Some officers preferred to have deputized powers,
     principally because doing so enabled them to write State traffic violation notices.
     Police managers at three of the installations stated that, based on their experience,
     State traffic violation notices are more effective than the DD 1805, “United States
     District Court Violations Notice,” and DD 1408, “Armed Forces Traffic Ticket.”
     According to the personnel, depending on the State involved, form DD 1805 and
     1408 violations were either not posted to State driver license records consistently,
     or the postings were not permitted at all (Appendix B). Another officer used his
     deputation to file charges with the local prosecutor, who reportedly preferred to
     receive charges filed by a State-deputized officer. That officer asserted that the
     installation relied on the local prosecutor because the servicing Federal magistrate
     did not want to adjudge the base’s minor cases; the U.S. Attorney’s Office that
     serviced the installation denied the assertion.


Is State and Local Assistance Effective?
     Using State or local deputation to enhance DoD law enforcement authority could
     be prudent at installations where local civilian law enforcement agencies with
     primary police authority are unable to address civilian crimes impacting
     Government property or personnel. To determine whether the DoD law
     enforcement mission could be met effectively without such deputation, we visited
     the principal civilian law enforcement agencies at three of the five locations
     where deputized powers were being used. Those civilian law enforcement
     agencies advised us that higher priority, exigent circumstances outside the
     installation might occasionally impact response time to the installation. However,
     none said that they could not or would not support DoD law enforcement
     personnel. In addition, none of the installations we visited had validated that local
     law enforcement was incapable of providing the necessary support before they
     sought deputation.




                                           8
Are Management Controls Adequate?
     To determine if adequate internal safeguards and management controls are in
     place to ensure the proper exercise of State-deputized authority, we asked Service
     headquarters police management offices for their policies that specifically
     addressed the use of deputized powers. None of the offices had such policies.
     Therefore, they did not have inspection processes that directly addressed
     oversight needs for the use of deputized powers.

     At the six locations that used or intended to use deputized powers, we asked if
     they had local written policy or operating instructions governing the use of
     deputized powers. Only one location had developed written policy covering
     training for and exercise of such powers. At another location, a Service legal
     opinion held that extant police authorities, without deputation, were sufficient for
     security personnel to fully discharge responsibilities. The same legal opinion,
     after noting that Federal law or regulation did not prohibit deputation,
     recommended limits on the authority and that permissible deputized actions be
     clearly detailed in written command guidelines. They were not.

     In summary, the Services do not have policy addressing use of deputized powers,
     and most locations with deputized powers do not have operating instructions or
     other written guidance regulating the use of those powers.


Do Benefits Outweigh Liabilities?
     We could not determine if the benefits from DoD law enforcement agencies using
     State or local deputation exceeded the potential liabilities. None of the locations
     with deputized powers was required to articulate such a determination in
     requesting deputation. At each location with deputized powers, the local civilian
     authorities concurred in the DoD law enforcement personnel exercising deputized
     powers but without persuasive justification that deputation was needed for public
     order. Of course, deputation would reduce demand for services placed against the
     local civilian law enforcement agency, but this result is not in and of itself a
     benefit for DoD law enforcement.

     On the issue of liability, our review did not identify instances where civil or
     criminal court actions were initiated against DoD uniformed police officers
     because they exercised deputized powers. Nevertheless, expansions in police
     powers and its application to a larger populace increases the potential for liability.


Conclusion
     We determined that neither the Office of the Secretary of Defense nor the Military
     Departments have issued policy to govern DoD law enforcement acquisition and
     of State and local deputized police powers while on duty at DoD installations.

                                           9
    Deputation has been acquired without demonstrating that the lack of deputation
    would significantly hamper the DoD law enforcement mission. Additionally,
    where deputation exists, it has not been shown that local law enforcement
    agencies would not provide adequate law enforcement assistance if requested.
    Once obtained, many deputized powers are not used, even though they are not
    constrained by command directives, which suggests the additional powers are not
    needed. Further, deputized powers that are exercised while on-duty are not
    subjected to command directives. While the deputation probably reduced DoD
    demand for police services placed against the local law enforcement agency, that
    result was not in and of itself a benefit for DoD law enforcement and would not
    outweigh potential increases in liability.


Recommendations, Management Comments and Evaluation
 Response
    1. We recommend that the Under Secretary of Defense (Personnel and
       Readiness) revise DoD Directive 5525.5, “DoD Cooperation with Civilian
       Law Enforcement Officials,” January 15, 1986, to require prior approval by
       the Service Secretary or designee for Service law enforcement organizations
       and by the Under Secretary of Defense (Personnel and Readiness) or designee
       for other DoD law enforcement organizations before a DoD law enforcement
       organization or person may use deputized State or local law enforcement
       powers while on duty at a DoD facility.

    2. We recommend that approvals for a DoD law enforcement organization or
       person to use deputized State or local law enforcement powers while on duty
       conform to the guidelines set forth in Appendix C of this report.

    3. We recommend the Military Departments establish procedures to periodically
       review the initial or recurrent training on the authority, scope, and extent of
       law enforcement authority at each installation.


    Management Comments
    The Air Force and Navy concurred with the report. The Army did not respond to
    the draft report. USD(P&R) deferred to the Office of the General Counsel, DoD.
    The General Counsel’s office concurred with the report, suggested the addition of
    the third recommendation, and provided suggestions for clarifying language.


    Evaluation Response
    We consider management comments to be fully responsive and have largely
    incorporated the suggested changes by the Office of the General Counsel.


                                        10
     Appendix A. Survey of Military Service Law
     Enforcement Organizations to Identify Those with
     Deputized State or Local Police Powers


     METHODOLOGY
              We identified all Army, Navy, Air Force, and Marine Corps installations with a
              total population (active duty and civil service) greater than 500. A total of
              243 installations (78 Army, 76 Navy, 72 Air Force, and 17 Marine Corps) were
              identified.

              After coordinating with the Quantitative Methods Division, Office of the
              Assistant Inspector General for Auditing, we determined that approximately
              90 installations would constitute a representative sample. We then calculated the
              percentage that each Service represented in the 243 installations and applied them
              to the randomly selected sample (N=90), rounding up as the percentage
              calculations warranted. The result was a 92 installation actual sample, consisting
              of 30 Army, 28 Navy, 28 Air Force, and 6 Marine Corps installations.

              We then sorted the total population (243 installations) by Service and population,
              from largest to smallest, and identified the median population. We regarded those
              bases with populations above the median as large installations, and those with
              populations below the median as small installations. After assigning index
              numbers to each base, we randomly selected an equal number of large and small
              installation for each Service until we reached that Service’s share of the
              92 installations sample size. Survey questionnaires were then sent to the
              92 installations.


     RESULTS OF SURVEY
              The response rate for our written survey was 100 percent. In responding to the
              survey, six installations (all Navy bases), or 6.5 percent of the total, reported that
              their law enforcement personnel used deputized police powers.14 The bases
              reported the following reasons for deputation.




14
     During our field visits, we determined that Base 2 did not have or use deputized police powers.

                                                              A-1
                                     Table 1
                        Reasons Given For Using Deputation
         Additional       To File         Portion of     Portion of      Insufficient
         Local Police    Charges In       Work In         Work in       Commanding           Other
Base*
          Training         Local         Proprietary    Concurrent         Officer
                          Courts         Jurisdiction   Jurisdiction      Authority
  1                          X                X              X
  2                                           X                                                X
  3                         X                 X                               X
  4          X              X                 X             X
  5                         X                               X
  6                         X               X
 Total       1              5                5               3                1                1
* Base 1 is Norfolk Naval Base, Virginia; Base 2 is Naval Air Station North Island, California; Base
   3 is Naval Air Weapons Station China Lake, California ; Base 4 is Naval Weapons Station
   Charleston, South Carolina; Base 5 is Naval Air Station Brunswick, Maine; and Base 6 is Naval
   Weapons Station Yorktown, Virginia.



Types of Deputized Personnel

       • Three of the six law enforcement organizations permitted both military
and civil service law enforcement officers to exercise deputized powers while on
duty.
        • Three of the six law enforcement organizations permitted only civil
service law enforcement officers to exercise deputized powers.
       • None of the six organizations permitted contract security officers to
exercise deputized powers while on duty.




                                               A-2
Management Oversight

                                   Table 2
                      Types of Personnel Deputized and
                   Types of Management Oversight Exercised
                                   Written
                                                        Initial           Recurring
                                 Guidance On
               Deputized                              Deputation          Deputation
 Base                               Using
               Personnel                               Training            Training
                                  Deputized
                                                       Required            Required
                                   Powers
             Military and
     1                                Yes                  No                  No
             Civil Service
             Military and
     2*                               Yes                 Yes                 Yes
             Civil Service
             Military and
     3                                Yes                 Yes                  No
             Civil Service

     4       Civil Service            No                  Yes                 Yes


     5       Civil Service            Yes                 Yes                  No


     6       Civil Service            No                  Yes                  No

 *    As previously noted, during field visits we determined that Base 2 did not have or
      use deputized powers.


        • According to the survey responses, two of the six law enforcement
organizations did not have written guidance governing how and when deputized
powers can be used while performing official U.S. Government duties. Those
results are at variance with our on-site evaluation work. We found that only one
location, Base 4, had written guidance covering the use of deputized powers.




                                               A-3
     Appendix B. How Bases Use Deputized Powers


     BASE 1, BASE 3, AND BASE 4
               Three bases had more than one police officer with State or local government
               deputation used to enforce state law while on Federal duty. Police managers at all
               three locations advised that using deputized powers to request and execute arrest
               or search warrants was extremely rare. The police managers indicated that
               although they used deputized powers to make warrantless arrests, the powers were
               primarily used to issue misdemeanor summonses or traffic violation notices. Two
               of the bases were predominately concurrent jurisdictions, and one was
               predominantly proprietary jurisdiction.

               Personnel at both bases with concurrent jurisdiction (Bases 1 and 4) maintained
               that their authorities to issue DD 1805, “United States District Court Violation
               Notice”, and DD 1408, “Armed Forces Traffic Ticket,” were not a sufficient
               deterrent to violators. The personnel claimed that the Armed Forces Traffic
               Ticket adjudicated in a base administrative process could not be posted to the
               violator’s State driving record. Similarly, personnel claimed that the United
               States District Court Violation Notice lacked a consistent process for notifying the
               violator’s state driver’s licensing agency.15 Further, personnel at both locations
               claimed that the servicing Federal District Court did not want their traffic and
               misdemeanor cases.

               We attempted to validate the claim that the Federal District Court did not want to
               hear traffic and misdemeanor cases from the base. At one location, the United
               States Attorney’s Office reviewed, with the responsible Federal Magistrate, the
               obligation to hear all cases under Federal jurisdiction. The United States
               Attorney's Office then reported to us that any Federal Magistrate’s reluctance to
               hear the cases would not be a continuing concern. With respect to the other base
               with concurrent Federal and State jurisdiction, representatives from the servicing
               United States Attorney’s Office told us they knew they could not limit military
               access to Federal courts, and Federal Magistrates in the district would not decline
               to hear any case within their jurisdiction. However, they thought that presenting
               traffic violations and misdemeanor crimes in state courts would be a more
               efficient use of Federal court and prosecutor resources.


15
     The Central Violations Bureau, which manages or monitors the United States District Court Violations Notices, told us
     that they have agreements with some states to post such traffic violations to violator driving records. If the person
     sends in the fine, which they refer to as a “collateral forfeiture,” the Bureau forwards a notice to the violator’s state
     licensing agency, assuming they have an agreement with the agency. If the person takes his or her chance in court and
     is convicted by the Federal Magistrate, it is up to the court to notify the violator’s state licensing agency. The Bureau
     doubted that the Federal Magistrates notify the States very often.

                                                              B-1
               At Base 3, which had predominately proprietary jurisdiction, police managers
               pointed out that proprietary jurisdiction presented certain law enforcement
               challenges. The managers observed that Federal courts do not have jurisdiction
               over most traffic violations, misdemeanor crimes, or felony crimes that occur on
               base and, therefore, they cannot use DD 1805, “United States District Court
               Violation Notice.” Similarly, they asserted that DD 1408, “Armed Forces Traffic
               Ticket,” is not an effective deterrent for traffic violators because the on-base
               administrative adjudication process is not sufficient to allow violations to be
               posted to the violator’s state driving record.16 In addition, according to the police
               managers, their law enforcement efforts are also impeded because State law
               normally only permits arrests for misdemeanor crimes if the police officer
               personally witnesses the crime. They asserted that civil service and military
               police officers at the base do not have arrest authority and can only detain a
               civilian for civil authorities. When they call the local police for misdemeanor
               crimes, the military and civil service policeman who witnessed the crime must
               sign the complaint stating that they have made a citizen’s arrest.17 At that point,
               the local police officer can take custody of the person because the officer is
               merely accepting custody of an arrestee.18 The police managers believe that
               relying on citizen arrest authority increases the officer’s civil liability, and
               because it is conduct that occurs while on duty, the Government’s liability is also
               increased.19


     BASE 5 AND BASE 6
               Two bases had one officer with deputized powers. Both locations were
               predominately concurrent jurisdiction facilities. Both locations previously had
               several more deputized personnel, but as the personnel retired or transferred, their
               replacements were not deputized. The use of deputized officers at Base 6 will end
               when the remaining officer retires. At that location, the officer uses his deputized
               authority to write State uniform summonses for traffic violations in a proprietary

16
     The State’s Department of Motor Vehicles verified the assertion. The State code allows only “convictions” to be
     posted to the driver’s record, and the results of administrative processes are not considered “convictions.”
17
     A citizen’s arrest is defined by Merriam-Webster Dictionary as an arrest made not by a law officer but by a citizen who
     derives authority from the fact of being a citizen.
18
     While visiting comparison sites where deputized powers were not used while on duty, we found that citizen’s arrests
     were used at one Navy and two Air Force bases.
19
     The Office of Enforcement Operations, Criminal Division, United States Department of Justice, has a similar opinion.
     Personnel at this office explained that citizen arrest authority could differ state-to-state. Some states include this
     authority in statute. Other states rely on common law principles. The authorities or responsibilities of the person
     making a citizen’s arrest can be murky, and there can be considerable room for interpretation by a local magistrate.
     The application of citizen’s arrest in a particular jurisdiction may require a retreat until no longer practical or something
     similar, and retreating is not a typical practice for a law enforcement officer. They also cited the fact that a citizen who
     makes an arrest must be right, i.e., the person they arrest must have committed the crime. On rare occasions,
     reasonable belief or some similar police officer standard may be permitted for an ordinary citizen (a person without
     statutory authority) who denies another’s freedom to move. The use of force to make a citizen’s arrest for a
     misdemeanor may not be permitted in some or most states. They thought reliance on citizen’s arrest powers could
     make resisting arrest a very challenging standard to apply. Further, variance in state laws could confuse the issues from
     one jurisdiction to the next.

                                                                B-2
              housing area. The officer writes 7 to 10 traffic violations per week. When the
              deputized officer is not on duty, the other police officers simply warn traffic
              violators. The one deputized officer does not make arrests because, if he did, the
              military base would be required to pay the confinement fees at the local jail.
              Serious infractions by civilians are turned over to local civilian police who
              directly incur the confinement costs. Infractions by military personnel are
              referred to their chain of command. The deputized officer does not execute arrest
              or search warrants.

              At Base 5, the one deputized officer is a Navy police detective. The location is
              predominantly concurrent jurisdiction, and the traffic citation issued is
              DD 1408, “Armed Forces Traffic Ticket.” The traffic tickets are adjudicated on
              base under an administrative process. More serious complaints, such as driving
              under the influence, are sent to the Navy detective who is also a “Special Police
              Officer” for the State.20 The detective told us that he files the paper work with the
              District Attorney’s Office because that office prefers receiving it from a
              State-certified police officer. The detective explained that the initial decision to
              seek deputized police powers was made because the servicing Federal District
              Court did not want to handle minor cases. Although the detective also has
              authority to request and serve search warrants, the last time he did so was in 1992,
              during an investigation into the theft of Government property.

              Our contacts did not validate the assertions concerning the Federal District Court.
              We contacted the Supervisor, Criminal Division, U.S. Attorney's Office, and were
              told that Federal Magistrates in the state process all violations cited on the
              DD 1805 form. The supervisor advised us that she had never heard of a policy
              that discourages presentation of misdemeanor cases in the Federal District Court.


     COMPARISON BASE WITH DEPUTIZED POWERS
              While visiting one comparison site, an Air Force base, we learned that police
              officers at the base had received deputation from one local jurisdiction, though it
              was not yet being exercised while on duty, and the base was negotiating
              additional deputation with other local jurisdictions. The Air Force base was in an
              urban area and had law enforcement services that extended to six venues, all with
              only Federal proprietary jurisdiction. For the six areas combined, the base relies
              on assistance from local law enforcement approximately 50 times a year. During
              1999, base police officers issued 131 moving traffic summons, including 4 for
              driving under the influence, using DD 1408, “Armed Forces Traffic Ticket.”




20
     State of Maine Statutes Title 30-A, §2671.




                                                  B-3
     Appendix C. Guidelines for Approving Use of
     Deputized State or Local Law Enforcement
     Powers by DoD Uniformed Law Enforcement
     Personnel While On Duty21


     1.      GENERAL
             Organizations performing DoD missions should not expand their law enforcement
             authorities by seeking deputized State or local law enforcement authority unless:

                 a. ability to perform an essential command law enforcement function within
             the jurisdiction is significantly hampered by a lack of authority to enforce State or
             local laws;

                 b. need for such law enforcement authority cannot be met effectively by
             assistance from law enforcement agencies with such authority;

                c. adequate internal safeguards and management controls exist to ensure
             proper exercise of the authority;

                d. advantages to possessing the authority can reasonably be expected to
             exceed the disadvantages likely involved in exercising the authority; and

                e. authority to use deputation from State or local government has been
             approved by the Under Secretary of Defense (Personnel and Readiness) or the
             Secretary of a Military Department or designee.


     2.      REQUESTS AND APPROVAL AUTHORITY

             a. For requests that justify the need and otherwise comply with the guidelines
             contained herein, the Under Secretary of Defense (Personnel and Readiness), the
             Secretary of a Military Department, or designee should approve requests for DoD
             civilian or military law enforcement personnel (hereafter referred to in aggregate
             as DoD law enforcement personnel, or DoD employees) to use, while on
             Government duty, deputized powers from State or local government.




21
     Guidelines were adapted from Attorney General Memorandum, “Guidelines for Legislation Involving Federal
     Criminal Law Enforcement Authority,” June 29, 1984.

                                                      C-1
     b. For DoD law enforcement personnel to use deputized State or local law
     enforcement authority while performing DoD functions, military commanders and
     law enforcement organization managers should request, through their chains-of-
     command, approval for DoD law enforcement personnel to use State or local law
     enforcement authority while performing DoD functions. The DoD law
     enforcement personnel must present written justification in support of the request,
     and the justification should comply with the following guidelines, as applicable.
     The written justification should provide all relevant information including: (1) a
     detailed discussion of the issues identified in paragraphs 1a-d above, (2) the
     concurrence or non-concurrence, and any comments, of the appropriate U.S.
     Attorney who would handle legal actions arising from the exercise of the
     deputation authority , and (3) a written statement from the State or local official
     issuing the deputation authorization agreeing with the scope of the delegation
     authority as defined by the installation commander and acknowledging that
     deputized installation law enforcement personnel will not comply with any State
     or local requirements that conflict in any way with federal law or the installation
     commander’s requirements.


3.   GUIDELINES

     a. Authority to Carry a Firearm. DoD law enforcement personnel should not
     rely on deputized State or local law enforcement authority to carry a firearm while
     on duty unless:

         (1) there is a significant likelihood that, in the course of performing assigned
     duties, the DoD employee will be placed in situations where use of a firearm
     would be legally permissible only if deputized by State or local authorities to:

              (i) protect himself/herself from a threat of imminent death, serious
     bodily injury, or kidnapping;

               (ii) prevent another person from causing imminent death or bodily
     injury to, or kidnapping of, a person who is under his/her protection; or

              (iii) prevent the imminent loss or destruction of, or damage to, property
     of substantial value that is under his/her protection;

        (2) it is unlikely that timely and effective assistance would be available from
     another agency with requisite police powers;

         (3) the DoD employee has graduated from an accredited training course in
     using the particular deputized State or local authority to carry and use firearms,
     and is currently qualified in the use; and

         (4) the requestor agrees that, should the use of deputized authority be granted,
     policies and procedures will be established and implemented to prevent the
                                          C-2
unauthorized use or misuse of firearms by the DoD employees covered in the
request. Policies and procedures must include a requirement for a designated
senior official to specifically authorize each DoD employee covered in the request
to carry a firearm under the deputized authority.

b. Authority to Seek and Execute an Arrest or Search Warrant. A DoD
employee should not seek or execute an arrest warrant or search warrant under
deputized State or local law enforcement authority, unless there is reason to
believe the person to whom the authority would be applied has committed an
offense within DoD law enforcement jurisdiction, or the person committed an
offense involving resistance to the DoD employee’s law enforcement authority, or
the authority is necessary to search for and seizure property related to such
offenses, and:

    (1) a significant likelihood exists that in the course of performing assigned
duties, the DoD employee will frequently encounter situations in which it is
necessary to rely on deputized State or local law enforcement powers to obtain
needed arrest or search warrants;

   (2) it is unlikely that timely and effective assistance would be available from
another agency;

    (3) the DoD employee has graduated from an accredited training course in
executing arrest and search warrants based on the particular deputized State or
local law enforcement authority; and

    (4) the requestor agrees that, should deputized authority be granted, policies
and procedures will be established and implemented to prevent unauthorized DoD
employee use or misuse of deputized State or local law enforcement authority to
obtain and execute arrest or search warrants.

c. Authority to Make a Warrantless Arrest. DoD employees should not make
an arrest without a warrant using deputized State or local law enforcement
authority unless the DoD employee has probable cause to believe the person being
arrested has committed a felony, or commits a felony or misdemeanor crime in
the DoD employee’s presence; and

    (1) a significant likelihood exists that, in the course of performing assigned
duties, the DoD employee will frequently encounter situations in which it is
necessary to rely on deputized State or local law enforcement powers to make an
arrest promptly;

   (2) it is unlikely that timely and effective assistance will be available from
another agency;

    (3) the DoD employee has graduated from an accredited training course in
making arrests based on the particular deputized State or local law enforcement
authority; and

                                    C-3
    (4) the requestor agrees that, should deputized authority be granted, policies
and procedures will be established and implemented to prevent unauthorized DoD
employee use or misuse of the deputized State and local law enforcement
authority to make arrests.

d. Authority to Serve a Grand Jury Subpoena or Other Legal Process. A
DoD employee should not rely on State or local deputized law enforcement
authority to serve a grand jury subpoena, a summons, a court order, or other legal
process, unless:

    (1) a significant likelihood exists that, in the course of performing assigned
duties, the DoD employee will frequently encounter situations in which it is
necessary to rely on deputized State or local law enforcement authority to serve
such process;

   (2) it is unlikely that other agency personnel could service the process on a
timely basis;

    (3) the DoD employee has been trained in the serving process based on the
particular deputized State or local law enforcement authority; and

    (4) the requestor agrees that, should deputized authority be granted, policies
and procedures will be established and implemented to prevent unauthorized DoD
employee use or misuse of the deputized State or local law enforcement authority
to serve process.

e. Authority to Administer an Oath or Affirmation. A DoD employee should
not rely on State or local deputized law enforcement authority to administer an
oath or affirmation, unless:

    (1) a significant likelihood exists that, in the course of performing assigned
duties, the DoD employee will frequently encounter situations in which it is
necessary or desirable to rely on State or local law enforcement authority to
administer an oath or affirmation and take a person’s statement or testimony
under oath or affirmation;

    (2) it is unlikely that other agency personnel could administer the oath or
affirmation conveniently and expeditiously;

    (3) the DoD employee has been trained in administering oaths and
affirmations based on the particular deputized State or local law enforcement
authority; and

    (4) the requestor agrees that, should deputized authority be granted, policies
and procedures will be established and implemented to prevent unauthorized DoD
employees use or misuse of the deputized State or local law enforcement authority
to administer oaths or affirmations.


                                    C-4
f. Authority to Use a Covert Investigative Technique. A DoD employee
should not rely on State or local deputized law enforcement authority to use a
covert investigative technique, unless:

    (1) a significant likelihood exists that, in the course of performing assigned
duties, the DoD employee will frequently encounter situations in which it is
necessary to rely on deputized State or local law enforcement authority to use
such a covert investigative technique;

   (2) it is unlikely that timely and effective assistance from an agency with
expertise in using the covert investigative technique will be available;

    (3) the DoD employee has graduated from an accredited training course in
using the covert investigative technique based on the deputized State or local
authority; and

    (4) the requestor agrees that, should deputized authority be granted, policies
and procedures will be established and implemented to prevent unauthorized DoD
employees use or misuse, or the appearance thereof, of the covert investigative
technique. The policies and procedures should include the requirement for a
designated senior official to approve the DoD employee’s use of a covert
investigative technique based on deputized State or local government authority.




                                    C-5
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)*
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)*
General Counsel, Department of Defense*

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)*
Assistant Secretary of the Army (Manpower and Reserve Affairs)*
General Counsel, Department of the Army*
Inspector General, Department of the Army*
Auditor General, Department of the Army*
Deputy Chief of Staff for Operations and Plans*
Commander, U.S. Army Criminal Investigation Command*

Department of the Navy
Assistant Secretary of the Navy (Manpower & Reserve Affairs)*
General Counsel, Department of the Navy*
Inspector General, Department of the Navy*
Director, Naval Criminal Investigative Service*
Deputy Commandant, Plans, Policies and Operations, Headquarters, U.S. Marine Corps*
Inspector General, U.S. Marine Corps*

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management & Comptroller)*
General Counsel, Department of the Air Force*
Inspector General, Department of the Air Force*
Commander, Air Force Office of Special Investigations*
Director of Security Forces*

Other Defense Organizations
General Counsel, Defense Logistics Agency
Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                         D-1
Non-Defense Federal Organizations
None

Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
   Committee on Government Reform



*Recipient of draft report.




                                         D-2
      Department of Navy Comments




E-1
Department of Air Force Comments




                           E-2
Department of Defense - Office of General Counsel Comments




                E-3
Department of Defense - Office of General Counsel Comments




                             E-4
Department of Defense - Office of General Counsel Comments




                E-5
                       Evaluation Team Members
Deputy Assistant Inspector General for Criminal Investigative Policy and Oversight,
Office of the Assistant Inspector General for Investigations, Office of the Inspector
General, Department of Defense.


John J. Perryman, Project Manager

Dennis J. Cullen, Investigative Review Specialist

Love A. Silverthorn, Investigative Review Specialist
